HHS/OIG-Audit-"Review of Medicare Administrative Costs Claimed by Blue Cross and Blue Shield of Montana - Helena, Montana"(A-07-01-02095)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Administrative Costs Claimed by Blue Cross and Blue
Shield of Montana - Helena, Montana," (A-07-01-02095)
October 1, 2001
Complete
Text of Report is available in PDF format (2.58 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report covers the audit of administrative costs claimed by Blue Cross
Blue Shield of Montana for Part A and Part B of the Medicare Program for the period
October 1, 1997 through September 30, 1999.  For the period audited, Blue
Cross Blue Shield of Montana reported administrative costs of $4,321,121 for Part
A and $6,606,700 for Part B.  The auditors questioned $211,086.  Questioned
costs included unallowable deferred compensation costs, excessive executive compensation,
errors in the calculation of return on investment, and a lack of support for certain
consultant costs. The auditors also noted material internal control deficiencies
relating to insufficient documentation of the indirect cost allocation and errors
in reporting costs incurred.